                                            NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM




An allegation was received from an NSF Program officer1 that a proposal submitted to N S F ~contained
material copied from a Ph.D. thesis3, portions of which were available on the world-wide web. The
duplicated material comprised approximately one page of near-verbatim test incorporated into the
introductory section of the proposal. Small changes in the duplicated test are evident in that certain
isolated sentences from the source material do not appear in the proposal, and some new sentences have
been added in the proposal text amidst the duplicated material. However, 88% of the text in the
introductory section of the proposal duplicates the text from the Ph.D. thesis. References in the proposal
for the duplicated section follow the cited references in the excerpt. The excerpt from the Ph.D. thesis on
the web is labeled as copyright 1995. The dissertation itself is not referenced in the proposal. No
evidence for association between the PIS and the dissertation author has been found. The remainder of
the proposal was examined for potential instances of plagiarism. Several paragraphs in the proposal are
overviews of the authors' previous work in the area, and texts from summaries of research papers
previously published by the authors appear in the proposal with appropriate citation. No other instance of
duplication or plagiarism in the proposal was found.

The PI and the cop1 of the proposal (the subjects) were contacted for their perspective on how the
verbatim material came to appear in their NSF proposal. The PI initially suggested that the material may
have appeared in an M.S. thesis of a student, but on further investigation, the PI concluded that this was
not the case. The PI then suggested that the duplicated material may have been gathered in preparation
for introductory sections of other graduate student theses, but on further search, the PI concludes that the
material does not in fact appear in these theses. The PI also suggested that a source for the duplicated
text material may have been a handbook of industrial crystallization previously prepared by the coPI.
This handbook was obtained; there is no duplication of the material from the handbook into the proposal.
 Therefore the PI could provide no source of origin for the duplicated text. The duplicated material is not
presently in the computer files of the PI. The PI indicated that the same duplicated material does appear
in a research proposal submitted to another federal agency submitted in October 2000, also authored in
collaboration with the coPI. The PI states that the incorporation of the verbatim material in both cases
was done unknowingly. The PI states that he made personal contact with the Ph.D. research advisor to
provide an explanation and an apology.

The cop1 provided a similar explanation of possible sources for the duplicated material, but also
confirmed that the verbatim material does not appear in any theses for his students, and confirmed that
the duplicate material does indeed appear in the proposal sent to the other federal agency. The cop1 also
states that the incorporation of the verbatim material was done unknowingly, and that he was unaware of




                                                                                                    OIG-02-2
                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: Closeout for A02020015
                                                                                  11            Page 2 of 2



     its source.

     An email from the Ph.D. advisor4 for the former student from whose dissertation the text was duplicated
     confirmed that the subject had talked with him on the.telephone about the situation, as indicated by the
     subjects. In addition, the subjects provided a copy of the earlier proposal to another federal agency in
     which the same duplicated dissertation text appeared.5 Examination of the earlier proposal showed
     evidence of duplication of the same introductory text, including a few additional sentences from the
     source document in the middle of the duplicated text.

     The duplicated text has likely been available on the web for approximately five years (between an
     assumed initial posting in 1995 and the submission of the first proposal by the subjects in 2000). The
     identity of the person that downloaded the text, and the conditions that made it available in a laboratory
     setting without its proper attribution are unknown and unlikely to be discoverable. The consequences of
     this plagiarism are minimal, and its extent limited only to the text identified. The subjects have been
     forthcoming and cooperative. Accordingly, this case is closed.




     4 Redacted
     5 Redacted
